TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Plans for Evaluating the Use
                          of Soft Notices in Addressing
                         Underreporting Can Be Enhanced



                                         August 27, 2010

                              Reference Number: 2010-30-089




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                      HIGHLIGHTS


PLANS FOR EVALUATING THE USE OF                           WHAT TIGTA FOUND
SOFT NOTICES IN ADDRESSING
                                                          This report focused on the IRS’ planning
UNDERREPORTING CAN BE ENHANCED                            activities for the Initiative. In the next phase of
                                                          the review, TIGTA will assess how well the plan

Highlights                                                was implemented and managed and if reliable
                                                          results were produced for deciding to expand,
                                                          modify, or terminate the use of soft notices in the
Final Report issued on August 27, 2010                    AUR Program.

Highlights of Reference Number: 2010-30-089               To their credit, the IRS team responsible for
to the Internal Revenue Service Commissioners             conducting the Initiative addressed many key
for the Small Business/Self-Employed Division             issues during their planning activities. However,
and the Wage and Investment Division.                     TIGTA does have observations in two areas that
                                                          the team may find useful. The areas involve
IMPACT ON TAXPAYERS                                       enhancing the credibility of results and the
                                                          support information for deciding whether to
Improving service to taxpayers is one of the
                                                          incorporate soft notices into the AUR Program
highest priorities for the Internal Revenue
                                                          on a permanent basis.
Service (IRS). Guided by its strategic plan, the
IRS’ vision is to make it easier for taxpayers to         WHAT TIGTA RECOMMENDED
fulfill their civic responsibility to pay taxes by
providing them with world-class service, taking           TIGTA recommended that the IRS establish
proactive steps to better understand issues from          criteria for determining what will constitute
the taxpayer’s perspective, and reducing                  success for the Initiative and ensure all costs are
taxpayer burden. Consequently, it will be                 quantified for determining the net benefit of
important for the IRS to understand and                   implementing the soft notice process in the
minimize the time and resources taxpayers                 AUR Program.
spend dealing with soft notices to increase the           IRS management agreed with the
likelihood of achieving its vision for improving          recommendations and plans to develop the
service to taxpayers.                                     metrics in the coming year to measure and
WHY TIGTA DID THE AUDIT                                   report soft notice results. As for determining the
                                                          net benefit of the soft notice process, IRS
This audit was initiated because the IRS is               management responded that the large-scale
involved in a multi-year initiative (the Initiative) to   rollout will be fully costed and that no corrective
determine if soft notices can address                     action is necessary. TIGTA is pleased that IRS
underreporting discrepancies. Briefly stated, the         management agreed with this recommendation.
notices ask the taxpayer to review their return           However, the absence of specific commitment
and if they underreported their income to file an         on when the full-scale rollout will take place
amended return.                                           could diminish the effectiveness of an important
                                                          control for assuring that key issues were
If determined to be successful, the Initiative
                                                          considered before using soft notices in the
could result in permanently using soft notices in
                                                          AUR Program on a permanent basis.
the IRS Automated Underreporter (AUR)
Program to address a large number of taxpayers
each year that would not ordinarily be contacted
by the IRS due to resource constraints. Given
the fact that the notices do not require any
taxpayer action, questions can be raised about
why the IRS would incur costs to send the
notices and risk unnecessarily burdening
taxpayers, especially those that result in little or
no tax change.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 27, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Plans for Evaluating the Use of Soft Notices in
                             Addressing Underreporting Can Be Enhanced (Audit # 200930038)

 This report presents the results of our review to determine whether the Automated Underreporter
 Program Soft Notice Initiative was effectively designed and managed to provide Internal
 Revenue Service (IRS) officials with reliable information for deciding whether the Initiative
 should be expanded, modified, or terminated. While our Fiscal Year 2010 Annual Audit Plan
 originally envisioned reporting and evaluating the IRS’ experience under this Initiative during
 Fiscal Year 2010, the late start of pilot testing provided limited time for a full assessment.
 Accordingly, we are providing an interim report that is focused on the IRS’ planning activities
 for the Initiative. In the next phase of the review, we will assess how well the plan was
 implemented and managed and if reliable results were produced for deciding to expand, modify,
 or terminate the use of soft notices in the Automated Underreporter Program. This review
 addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                     Plans for Evaluating the Use of Soft Notices
                                   in Addressing Underreporting Can Be Enhanced




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Soft Notices May Further Enhance Automated Underreporter
          Program Results ............................................................................................Page 3
          Most Key Issues Were Addressed in Planning the Soft Notice Initiative ....Page 5
          Plans for Evaluating the Initiative’s Results Could Be Improved ................Page 9
                    Recommendations 1 and 2: ..............................................Page 10


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Recommended Approach for Business Process Changes....Page 16
          Appendix V – Example of a Computer Paragraph 2057 Notice ..................Page 19
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
        Plans for Evaluating the Use of Soft Notices
      in Addressing Underreporting Can Be Enhanced




              Abbreviations

AUR     Automated Underreporter Program
CP      Computer Paragraph
FY      Fiscal Year
GAO     Government Accountability Office
IRS     Internal Revenue Service
TY      Tax Year
                                Plans for Evaluating the Use of Soft Notices
                              in Addressing Underreporting Can Be Enhanced




                                           Background

One purpose of the Automated Underreporter Program (hereafter referred to as the AUR or the
AUR Program) is to resolve income discrepancies between the information taxpayers report to
the Internal Revenue Service (IRS) on tax returns and related information employers and
financial institutions provide the IRS on information returns. Once discrepancy cases are
identified, the IRS decides how many cases it believes it has sufficient resources to investigate
out of the total number identified.
Once selected, AUR cases are distributed to six IRS campuses 1 where tax examiners manually
review each case. After analyzing the tax returns, tax examiners are sometimes able to
immediately resolve the discrepancies, in which case no further actions are taken. For the
remaining AUR cases, tax examiners may request additional information from taxpayers by
sending a Computer Paragraph (CP) 2000 notice. 2
If the taxpayer provides supporting documentation and the tax examiner determines the
information resolves the discrepancy, the case is closed with no changes to the taxpayer’s
account. However, if the examiner determines the information does not resolve the discrepancy
and the taxpayer agrees with the examiner’s determination, the IRS will assess additional tax
based on the CP 2000 notice and close the case as agreed. When a taxpayer does not agree or
does not respond to the CP 2000 notice within the required time period, a Statutory Notice of
Deficiency 3 will be issued to assess additional tax.
Because IRS resources cannot investigate all areas of noncompliance, including AUR
discrepancies, the IRS is increasingly using alternative approaches to resolve compliance issues
outside its traditional processes. In the AUR Program, where millions of discrepancy cases were
not investigated for Tax Year (TY) 2007, officials selected approximately 31,000 cases for
mailing AUR soft notices to taxpayers.
The soft notices are called a CP 2057 4 and do not require that the taxpayer pay more tax, provide
documentation, or file an amended return. Instead, they are designed to serve as an educational
tool, encourage self-correction, and improve voluntary compliance. Although the notice requests
the taxpayer to file an amended return if appropriate, it is not required. By comparison, the


1
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The CP 2000 notice is an IRS letter sent to a taxpayer to resolve discrepancies between income, credits, and/or
deductions claimed on a tax return and those reported by a third party, as well as to propose an additional tax
assessment.
3
  An IRS letter sent to taxpayers notifying them of an increase in the amount of taxes they owe.
4
  See Appendix V for an example of the CP 2057 notice.
                                                                                                         Page 1
                                    Plans for Evaluating the Use of Soft Notices
                                  in Addressing Underreporting Can Be Enhanced



CP 2000 is primarily focused on compliance and indicates that the IRS has made, or is
proposing, a tax change and that the taxpayer owes additional tax.
The review was performed at the IRS Wage and Investment Division Headquarters Office in
Atlanta, Georgia, during the period September 2009 through April 2010. Except for not auditing
the IRS Individual Master File 5 that was used to validate the accuracy and reliability of the data,
we conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Detailed information on our audit
objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                             Page 2
                            Plans for Evaluating the Use of Soft Notices
                          in Addressing Underreporting Can Be Enhanced




                                 Results of Review

In the AUR Program, where millions of cases with a potentially significant amount of unreported
taxes are not investigated each year, an IRS team is involved in the AUR Program Soft Notice
Initiative (the Initiative). It is a multi-year initiative to determine if soft notices can address
compliance issues among taxpayers that would not otherwise be subject to an AUR contact due
to resource constraints. To their credit, the team responsible for carrying out the Initiative
addressed many key issues recommended by the Government Accountability Office (GAO) for
establishing new business processes or improving existing ones.
However, in two areas of the team’s evaluation plan, we have observations that they may find
useful. The first area involves the team defining what would constitute success for the Initiative.
The second area involves ensuring all costs the IRS has or will incur are quantified and
considered in the plan for determining the net benefit of implementing soft notices into the AUR
process. By taking such actions, the team can enhance the creditability of the Initiative’s results
and assure senior IRS executives that important issues were considered before deciding whether
to incorporate soft notices into the AUR Program on a permanent basis.

Soft Notices May Further Enhance Automated Underreporter Program
Results
In Fiscal Years (FY) 2004 through 2009, IRS statistics showed the AUR Program assessed
$29.4 billion in taxes from closing 18.5 million cases involving discrepancies between the
information taxpayers reported on tax returns and the related information reported by third
parties. This condition indicates that, in FYs 2004 through 2009, each AUR case averaged about
$1,589 in additional assessments. Despite the seemingly high return from AUR cases, resource
constraints have historically limited the AUR Program’s ability to working a relatively small
portion (about one-third) of the discrepancies identified each year. However, recent IRS tests
have shown that it has successfully leveraged its limited resources to address noncompliance in
various areas by sending soft notices that ask taxpayers to voluntarily fix their misreporting by
filing an amended return or not repeating the action in the next year.




                                                                                            Page 3
                                 Plans for Evaluating the Use of Soft Notices
                               in Addressing Underreporting Can Be Enhanced



The IRS Wage and Investment Division successfully demonstrated it can use soft
notices to help address issues involving duplicate Taxpayer Identification
Numbers 6
Researchers in the IRS Wage and Investment Division assessed the impact of using soft notices
as early as TY 2002 in a project that involved 820,111 taxpayers of an estimated 2.4 million
taxpayers who claimed a duplicate Social Security Number for a dependent to obtain an
exemption, Earned Income Tax Credit, or child tax credits. According to the researchers’
Calendar Year 2005 report, 7 the IRS received amended returns from 11.4 percent of the
population that received soft notices. In addition, researchers reported that 84.9 percent of the
taxpayers did not repeat the same mistake in the 2 subsequent tax years (2003 and 2004).
Because the soft notices appeared to have altered noncompliant behavior, researchers estimated
that approximately $218 million in tax revenue may have been saved after fewer Earned Income
Tax Credit and/or dependency exemptions were claimed in TY 2003 by taxpayers who received
soft notices. In addition, the IRS moved beyond testing soft notices on this segment of filers and
now sends millions of soft notices as part of its regular business processes that address issues
with duplicate Social Security Numbers.

The IRS Small Business/Self-Employed Division reported that soft notices in the
AUR Program can have a beneficial impact on taxpayer behavior
In the AUR Program, researchers in the Small Business/Self-Employed Division reported
positive results in November 2008 from a project called the AUR Self-Correct Letter Test. The
project followed up on an earlier AUR soft notice test but incorporated statistical sampling
techniques in assessing whether soft notices affect the compliance behavior of taxpayers
identified as underreporting income and who are served by the Small Business/Self-Employed
Division. In March 2008, the soft notices were sent to 500 randomly selected taxpayers who
underreported income on their TY 2006 returns. In addition, a randomly selected control group
of 500 taxpayers, who underreported income, were similarly selected but were not sent a soft
notice.
According to their Calendar Year 2008 report,8 researchers identified four factors supporting
their conclusion that soft notices can have a beneficial impact on the reporting behavior of
Small Business/Self-Employed Division taxpayers. First, the soft notices generated amended
returns from 46 (9 percent) of the 500 taxpayers, of which 26 owed additional taxes ranging from
$7 to $7,560. Second, only 2 of the 500 taxpayers in the control group filed an amended return.

6
  A nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the taxpayer,
the Taxpayer Identification Number is either an Employer Identification Number, a Social Security Number, or an
Individual Tax Identification Number.
7
  Soft Notice for Duplicate TINS for Tax Years 2002, 2003 and 2004 Level 2 Report (Wage and Investment Division
Research Project Number 6-05-12-2-030E, dated November 29, 2005).
8
  AUR Self-Correct Letter Test (Project Identification Number: DEN0081, dated November 2008).
                                                                                                           Page 4
                               Plans for Evaluating the Use of Soft Notices
                             in Addressing Underreporting Can Be Enhanced



Third, after receiving a soft notice, 147 (29 percent) of the 500 taxpayers called the IRS seeking
assistance with completing and filing an amended return. Fourth, all but one of the amended
returns filed addressed the discrepancy noted in the soft notice.
Besides concluding that soft notices can have a beneficial impact on taxpayer behavior, the
researchers made several recommendations to IRS executives based on lessons learned from
their work. Specifically, the recommendations were aimed at strengthening support data for
using soft notices in the AUR Program and included 1) partnering with the Wage and Investment
Division in conducting a new project involving more taxpayers served by the Divisions, 2) using
control groups and statistical sampling techniques to cover all categories of income
discrepancies, 3) modifying the soft notice so it informs taxpayers of the potential consequences
of not filing an amended return, 4) staggering the issuance of the soft notices to reduce the
volume of calls from taxpayers seeking assistance, and 5) ensuring IRS personnel are better
prepared to respond to taxpayer inquires. In response to the recommendations, the IRS formed a
team to conduct a multi-year initiative to assess if soft notices can address compliance issues
among taxpayers that would not otherwise be subject to an AUR contact because of resource
constraints.

Most Key Issues Were Addressed in Planning the Soft Notice Initiative
One of the best practices for developing and implementing new business processes, or for
improving existing ones, is to establish an overall approach that contains detailed steps for
carrying out the various phases of an initiative. For example, the GAO developed and used a
20-step approach to evaluate 9 earlier improvement initiatives in the IRS Small Business/
Self-Employed Division. The approach is based on its Business Process Reengineering
Assessment Guide 10 and discussions with managers in private industry as well as in other Federal
agencies. According to the GAO, the 20 steps included in its approach help ensure potential
obstacles are considered in planning, problems are pinpointed and addressed through pilot
testing, and results are evaluated accurately.
We used GAO’s 20-step approach as criteria to assess how closely the team considered each of
the recommended steps during their planning activities for the Initiative. In making our
assessment, it is important to recognize that the first six steps in the approach deal, in large part,
with understanding the problem and using empirical data as the basis for deciding to implement a
new process or improve an existing one. Since the team was convened after the decision was
made to expand soft notice testing in the AUR Program, we used IRS statistics, the Internal
Revenue Manual, 11 strategic planning documents, and research results to make our judgment


9
  Tax Administration: Planning for IRS’s Enforcement Process Changes Included Many Key Steps but Can Be
Improvement (GAO-04-287, dated January 2004).
10
   GAO/AIMD-10.1.15, dated May 1997.
11
   A manual containing IRS internal guidelines.
                                                                                                     Page 5
                                   Plans for Evaluating the Use of Soft Notices
                                 in Addressing Underreporting Can Be Enhanced



about these items. We believe it is equally important to recognize that, according to the GAO, a
degree of discretion is involved in making judgments about each of the steps and some steps will
not be appropriate for every project. As shown in Figure 1, except for the two areas indicated
with an empty bubble, the team did a good job overall of planning the Initiative. Appendix IV
provides additional details for each of the items in the GAO approach.
            Figure 1: Assessment of the AUR Program Soft Notice Initiative
                             Using Key Best Practices

                        Steps                     Included                    Comments

 Map current process                                 ●
 Identify productivity baselines                     ●
 Identify causes of poor performance                 ●
 Include complexity and quality in productivity
 measures                                            ●
 Measure gap between current and desired
 productivity                                        ●
 Compare current productivity to internal and
                                                             Internal but not external benchmarks considered.
 external benchmarks

                                                             Used best practices from within, but not outside
 Use best practices                                          the IRS.

 Design process to close productivity gap            О       Intended outcomes for success not quantified.

 Analyze alternatives                                ●
 Obtain executive support                            ●
 Assess barriers to implementing changes             ●
 Assess resource needs and availability              ●
 Conduct pilot tests                                 ●
 Adjust process based on pilot                       ●
 Define roles and responsibilities                   ●

                                                                                                         Page 6
                                 Plans for Evaluating the Use of Soft Notices
                               in Addressing Underreporting Can Be Enhanced




                       Steps                          Included                       Comments
                                                                    Employee roles and responsibilities not
 Establish employee expectations                         N/A
                                                                    anticipated to change.

 Monitor and evaluate the new process                     о         Intended outcomes for success not quantified.


 Establish a change management strategy                   ●
 Establish a transition team                              ●
 Develop workforce training plans                         ●
                                            ● Full        Partial   о   No

Source: Our analysis of GAO’s 20-step approach to evaluate process improvement and data provided by the IRS.

By addressing most of the steps in planning, the team is better positioned to produce the data
needed for making a more informed decision about whether the use of soft notices in the
AUR Program should be expanded, modified, or terminated. For example, in the planning phase
of the Initiative, we found evidence of IRS officials participating in and supporting expanded
testing of soft notices in the AUR Program. As reflected in the IRS 2008 Tax Forums, 12 efforts
were also made to build support and momentum for the Initiative. During the Forums, IRS
officials provided an overview of the Initiative to thousands of tax return preparers and others
who attended the presentations offered in major cities throughout the country.
Potential barriers were also assessed as well as resource needs, availability, and costs. For
example, the Initiative originally called for coordinating with the IRS Modernization and
Information Technology Services organization in automating the issuance of some 250,000 soft
notices. When the computer programming resources were not available, the team decided
instead to reduce the number of soft notices and issue them manually to help keep the project on
track.
Notably, the team also incorporated some best practices recommended from, but not consistently
used in, previous soft notice pilot tests. For example, the Initiative’s first pilot test, called the
TY 07 Soft Notice Test, involves significantly more taxpayers and includes representative
samples from each of the major categories of discrepancies covered by the AUR Program. The
samples for both the soft notices and the control group were randomly drawn from the
population of TY 2007 discrepancies that were not included in the AUR Program’s inventory


12
  The IRS Tax Forums are annual seminars given by the IRS at various locations around the country. They are used
to communicate current information from IRS leadership and experts in the fields of tax law, compliance, and ethics
to tax preparers and other interested individuals.
                                                                                                               Page 7
                                Plans for Evaluating the Use of Soft Notices
                              in Addressing Underreporting Can Be Enhanced



due to resource constraints. Statisticians for both the IRS and the Treasury Inspector General for
Tax Administration confirmed the validity of the sampling methodology so the results should be
able to be projected to the population as a whole. Figure 2 provides details on the number
sampled from each discrepancy type.
                 Figure 2: TY 2007 AUR Program Inventory for the Initiative

                                                                                                 Percentage
                                                        Soft                     Percentage
                                                                    Control                        of the
     Discrepancy Categories           Population       Notice                      of the
                                                                    Sample                        Sample
                                                       Sample                    Population
                                                                                                   Total
 Advanced Earned Income Credit              15,043           684          684            4.5%            2.2%
 Pension and retirement income             705,438         2,748        2,748             .4%            8.9%
 Payments from States                      326,249           766          766             .2%            2.5%
 Investment income                       3,031,656         8,622        8,622             .3%           28.0%
 Withholding differences                   260,478           767          767             .3%            2.5%
 Income from rent and royalties            273,310         1,528        1,528             .6%            5.0%
 Mortgage interest                       1,698,767         2,113        2,113             .1%            6.9%
 Agricultural subsidies                      8,587           649          649            7.6%            2.1%
 Gambling winnings                         219,276           767          767             .3%            2.5%
 Wages                                   1,793,576         2,194        2,194             .1%            7.1%
 Nonemployee compensation                  700,426         1,135        1,135             .2%            3.7%
 Self-Employed                             142,839           766          766             .5%            2.5%
 Other                                   3,465,087         8,081        8,081             .2%           26.2%
  Total                                 12,640,732        30,820       30,820                        *100.0%
Source: Our analysis of IRS-provided data on AUR Program Soft Notice Initiative population for sampling and
selected samples. * = Column does not add precisely due to rounding.

To their credit, the team developed an evaluation plan that includes a combination of
performance measures for assessing the Initiative’s outcomes. According to the GAO, good
performance measures are needed for weighing the costs of the process against expected
benefits, determining whether a process is achieving desired results, and assessing if further
improvements are needed.




                                                                                                       Page 8
                             Plans for Evaluating the Use of Soft Notices
                           in Addressing Underreporting Can Be Enhanced



Plans for Evaluating the Initiative’s Results Could Be Improved
The team’s evaluation plan calls for collecting and measuring data on the impact soft notices
have on the IRS’ revenue, staff, and compliance coverage. Importantly, data will also be
collected and assessed on the time and resources (burden) taxpayers spend dealing with the soft
notices. Careful collection and assessment of taxpayer burden issues are vital because AUR soft
notices may ultimately be sent to millions of taxpayers. In this regard, the team plans to collect
and evaluate various aspects of the issue through three measures.
The first measurable item, called the screen-out rate, involves manually reviewing discrepancies
identified by IRS computers before issuing a soft notice that may not be warranted. A
discrepancy, for example, can be identified by IRS computers but a manual review may identify
something the computer could not, such as an income item mistakenly reported on the incorrect
line of a tax return. The practice of screening notices is routinely used for regular AUR notices
(CP 2000) and annually results in eliminating hundreds of thousands of unnecessary notices that
would have otherwise been sent to taxpayers.
The second measureable item, called the no-change rate, measures the percentage of notices that
are issued to taxpayers but closed without making additional tax changes. Contacts that end with
no change to taxes owed could have adjustments (e.g., reduced a reported loss but not enough to
produce a tax liability). From the IRS’ perspective, a closure with adjustments is viewed as a
productive contact, while one without any changes is viewed as unproductive and burdensome to
the taxpayer. The third item the team intends to measure is the percentage of taxpayers that
sought the assistance of a paid tax preparer in dealing with the soft notice and, therefore, incurred
the additional related expense.

Enhancements can be made by defining what would constitute success for the
Initiative and including information about the total costs the IRS will incur
Although the team’s evaluation plan includes a combination of performance measures, it could
be enhanced in two areas that are typically part of a sound assessment methodology. The first
area involves the team defining what it would consider a success within each of the measureable
items and/or how much weight the various factors being measured will have in determining the
overall success of the Initiative. Making such determinations can enhance the credibility of the
Initiative’s results while helping avoid any perception of bias.
The second area involves ensuring all costs the IRS has or will incur are quantified and
considered in the plan for determining the net benefit of implementing soft notices into the
AUR process. During our early discussions with IRS officials about this Initiative, we learned a
contractor was heavily involved in designing the management information system that is being
used to capture, track, and analyze taxpayer responses to the soft notices. Consequently, it will
be important to ensure contractor expenses are considered as well as the costs associated with
preparing and issuing the notices.

                                                                                              Page 9
                            Plans for Evaluating the Use of Soft Notices
                          in Addressing Underreporting Can Be Enhanced



While the preparation and issuance of the notices is expected to be largely automated, these costs
could rise substantially if the IRS needs to process payments and amended returns because of the
additional processing involved with mail sorting, computer data input, data verification, and
deposit. In addition, costs will be incurred when the receipt of the notice by the taxpayer
generates further correspondence between taxpayers and the IRS. In these instances, there will
be costs associated with IRS personnel responding directly to the taxpayer regarding the
correspondence or the information provided.
By specifying all costs in their plan, as well as benefits, the team can establish an important
control for assuring IRS senior executives that important issues were considered before deciding
to incorporate soft notices into the AUR Program on a permanent basis. Moreover, reliable
cost-benefit information may help alleviate concerns that could be raised about why the IRS
incurs the costs associated with sending the notices, particularly when those notices result in no
or small tax changes, because they do not require any taxpayer action.

Recommendations
The Director, Compliance, Wage and Investment Division, and the Director, Campus
Compliance Services, Small Business/Self-Employed Division, should coordinate actions to:
Recommendation 1: Establish criteria for determining what will constitute a success for the
Initiative, including the relative weight, if any, that will be given to the various performance
measures and whether there are specific thresholds that must be achieved to be considered
successful.
       Management’s Response: IRS management agreed that criteria for measuring
       success are important. They will continue to refine case selection criteria each year to
       identify the best candidates for soft notices. In the coming year, the IRS will develop the
       metrics and establish the criteria necessary to measure and report soft notice results.
Recommendation 2: Ensure all costs the IRS has or will incur are quantified and considered
in the plan for determining the net benefit of implementing soft notices into the AUR process.
       Management’s Response: IRS management agreed with this recommendation but
       responded that no corrective action is necessary. According to IRS management, the
       large-scale rollout will be fully costed as a budget initiative for the Wage and Investment
       Division Submission Processing and Accounts Management functions. According to the
       response, all costs will be captured for measuring success and reporting the cost-benefit
       of soft notices to the AUR Program.
       Office of Audit Comment: We are pleased that IRS management agreed with the
       recommendation and recognized the need for measuring success and reporting the
       cost-benefit of soft notices to the AUR Program. However, the absence of specific
       commitment on when the full-scale rollout will take place could diminish the

                                                                                          Page 10
                    Plans for Evaluating the Use of Soft Notices
                  in Addressing Underreporting Can Be Enhanced



effectiveness of an important control for assuring that key issues were considered before
deciding to incorporate soft notices into the AUR Program on a permanent basis.




                                                                                  Page 11
                                    Plans for Evaluating the Use of Soft Notices
                                  in Addressing Underreporting Can Be Enhanced




                                                                                          Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the AUR Program Soft Notice
Initiative (the Initiative) was effectively designed and managed to provide IRS officials with
reliable information for deciding whether the Initiative should be expanded, modified, or
terminated. As part of the review, we relied on databases provided to us by the IRS and did not
audit the source systems. Unless otherwise noted, our limited tests of the reliability of data
obtained from the IRS did not identify any errors. We tested the reliability of the data by
scanning the data received for blank, incomplete, illogical, or improper data. In addition, we
traced a judgmental sample of the data to the source information on the IRS Individual Master
File 1 to ensure accuracy. To accomplish our objectives, we:
I.         Determined if the IRS developed a business case or its elements for the AUR Program
           Soft Notice Initiative, took steps to identify obstacles, and implemented the Initiative
           with good management practices in place.
           A. Obtained and analyzed prior IRS research studies related to soft notices.
           B. Interviewed AUR Program management to identify the purpose and goals of the
              AUR Program Soft Notice Initiative. We secured and evaluated the elements of the
              business case that were developed for the AUR Program Soft Notice Initiative to
              determine whether agency priorities and direction were addressed.
           C. Interviewed AUR Program management and obtained documentation for review to
              evaluate whether steps were taken to ensure potential implementation obstacles were
              considered in planning the AUR Program Soft Notice Initiative and whether results
              were monitored and evaluated.
           D. Determined if the IRS addressed key design issues in the Initiative using the GAO
              process reengineering approach as criteria (see Appendix IV).
           E. Determined if the AUR Program Soft Notice Initiative was implemented with good
              management practices. We analyzed the methodology used to measure the results of
              the Initiative.
           F. Obtained AUR Program business result statistics related to inventory and case
              closures for background purposes.

1
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                              Page 12
                           Plans for Evaluating the Use of Soft Notices
                         in Addressing Underreporting Can Be Enhanced



II.    Assessed the statistical validity of the IRS’ sampling methodology and analyzed the
       population and sampled taxpayers by discrepancy type.
       A. Obtained from the IRS the sampling model developed by the Statistics of Income
          Division.
       B. Obtained confirmation on the validity of the sampling methodology from statisticians
          working for the IRS and the Treasury Inspector General for Tax Administration.
       C. Analyzed the overall population of cases identified by the AUR Program as having an
          income discrepancy for TY 2007 from which the soft notice and AUR control
          samples were selected.
       D. Analyzed the soft notice and AUR control samples’ composition by discrepancy type
          and percentage of the population.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not review internal
controls in this review because our scope was limited to evaluating the planning of the
AUR Program Soft Notice Initiative.




                                                                                        Page 13
                          Plans for Evaluating the Use of Soft Notices
                        in Addressing Underreporting Can Be Enhanced



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Steven Stephens, Audit Manager
Alan Lund, Acting Audit Manager
Sharon Summers, Lead Auditor
Kristi Larson, Senior Auditor
Julia Tai, Senior Auditor
William Tran, Senior Auditor




                                                                                      Page 14
                         Plans for Evaluating the Use of Soft Notices
                       in Addressing Underreporting Can Be Enhanced



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       GAO/TIGTA Liaison, Small Business/Self-Employed Division SE:S
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 15
                                  Plans for Evaluating the Use of Soft Notices
                                in Addressing Underreporting Can Be Enhanced



                                                                                                 Appendix IV

                Recommended Approach for Business
                       Process Changes

The three figures in this appendix present summary information on the criteria the GAO
developed for use when considering, planning, and implementing new or improving existing
business processes. The GAO developed the approach based on its Business Process
Reengineering Assessment Guide and discussions with top-level managers in private industry as
well as in other Federal agencies.
    Figure 1: Recommended Steps in Considering a Potential Process Change

            Steps                                                   Description
                                  Similar to flowcharting, process mapping is a graphical representation of the
                                  various activities, procedures, roles, and responsibilities within one or more
 Map current process              business processes. Its purpose is to help present a clear picture of the current
                                  processes to help identify the root causes for under performance and achieve the
                                  desired level of improvement.

                                  Baseline data are needed to provide measures from the current processes to use in
Identify productivity baselines
                                  comparing the level of improvement achieved by the new process.

                                  This step involves identifying the factors or combination of factors that are
 Identify causes of poor
                                  causing the poor performance in the current process. Examples could include a
 performance
                                  lack of resources and/or regulatory requirements.

                                  Productivity measures the efficiency with which a process uses resources to
 Include complexity and
                                  produce a product or service, such as the number of audits an IRS examiner
 quality in productivity
                                  completes in a month. To be accurate, a combination of measures is generally
 measures
                                  needed and consideration needed to be given to the level of difficulty involved.

 Measure gap between              Ideally, the level of performance improvement desired should be achievable and
 current and desired              based on empirical data that define where a particular performance level is and
 productivity                     where the level of improvement is sought.

                                  Benchmarks are measures from which performance improvement can be
 Compare current
                                  quantified. They provide reference points that can be used to help identify and
 productivity to internal and
                                  close performance gaps between processes used in other organizations and/or in
 external benchmarks
                                  different functions within the same organization.
Source: The GAO and our analysis of the GAO Business Process Reengineering Assessment Guide (May 1997).



                                                                                                            Page 16
                               Plans for Evaluating the Use of Soft Notices
                             in Addressing Underreporting Can Be Enhanced



                    Figure 2: Recommended Steps for Planning a Process

            Steps                                                Description
                              Identifying and using best practices is a form of benchmarking that involves
                              adapting practices of others to reach new improvement levels. It is especially
 Use best practices
                              recommended that government agencies use business organizations in private
                              industry for this purpose.

                              Quantitative data are needed to support changing to a new process that shows the
 Design process to close      change will narrow the gap between current performance and the desired level of
 productivity gap             performance level. To add credibility and avoid any perception of bias in making
                              the change, the desired level of performance sought should be specified.

                              Alternative process changes that may produce the same level of improvement
                              should be explored in terms of their relative costs and benefits. Such exploration
 Analyze alternatives
                              can be done through limited testing and may identify a more cost-effective
                              approach to achieving the same or similar results.

                              Executive support and oversight throughout a process change is important for a
                              number of reasons that include ensuring resources are available, securing support
 Obtain executive support
                              from internal and external stakeholders, and approving proposed recommendations
                              for implementation.

                              Identifying and assessing the costs of overcoming potential barriers to
                              implementing a change is important because it may ultimately prove to be too great
 Assess barriers to
                              a burden. Examples of barriers could include laws, regulations, employee union
 implementing changes
                              agreements, lack of resources, current political environment, and/or lack of
                              executive support.

                              Before initiating a process improvement project, it is important to ensure the
 Assess resource needs and
                              resources are available to design, plan, and implement the change. Otherwise,
 availability
                              there is a risk the new change will only be partially implemented.
Source: The GAO and our analysis of the GAO Business Process Reengineering Assessment Guide (May 1997).




                                                                                                         Page 17
                                   Plans for Evaluating the Use of Soft Notices
                                 in Addressing Underreporting Can Be Enhanced



         Figure 3: Recommended Steps for Implementing a Process Change

            Steps                                                    Description
                                  In short, pilot testing is designed to show intended benefits from a change can in
                                  fact be realized. It involves evaluating how well the process change works in
 Conduct pilot tests              practice, pinpointing and correcting problems, and refining performance measures.
                                  Importantly, it can also strengthen executive and other stakeholder support for
                                  moving from testing to full-scale operation.

                                  This step is designed to incorporate and test needed changes to the new process
 Adjust process based on pilot
                                  based upon lessons learned in earlier pilot testing.

 Define roles and                 To ensure accountability, it is vital to designate the specific personnel who will be
 responsibilities                 responsible for making the process improvement.

                                  Developing and issuing new performance expectations needs to be considered and
 Establish employee
                                  developed if the new process causes traditional roles, responsibilities, and
 expectations
                                  expectations to change for employees.

                                  An evaluation plan is one of the first steps needed for evaluating the success of
                                  process change and needs to include a combination of performance measures for
 Monitor and evaluate the         weighing the costs of the new process against expected benefits, determining
 new process                      whether the process is achieving desired results, and assessing if further
                                  improvements are needed. To enhance credibility and avoid potential bias, the
                                  criteria about what would constitute a success needs to be defined.

                                  Change management is a structured approach for how best to address the
                                  transitional issues associated with moving to a new process. These issues, among
 Establish a change
                                  others, include addressing resistance that may be encountered within an
 management strategy
                                  organization or work unit to a new way of conducting business. The approach
                                  should be designed to build support and positive attitudes for the change.

                                  Typically, a transition team is responsible for managing the implementation of a
 Establish a transition team      new process. As such, the team should develop a plan that communicates the
                                  various aspects of the new process, its goals, and how it will be implemented.

                                  In general, employee training plans need to be considered and developed if the
                                  change is going to significantly alter traditional roles and responsibilities. For
 Develop workforce training
                                  example, employees may need training to learn new technical or communication
 plans
                                  skill sets if they are going to successfully take on new responsibilities or be
                                  expected to work more independently under the new process.
Source: The GAO and our analysis of the GAO Business Process Reengineering Assessment Guide (May 1997).




                                                                                                              Page 18
                                   Plans for Evaluating the Use of Soft Notices
                                 in Addressing Underreporting Can Be Enhanced



                                                                                                    Appendix V

        Example of a Computer Paragraph 2057 Notice                                                          1




1
    All dates, monetary, and taxpayer identifying information contained in this example are hypothetical.
                                                                                                            Page 19
  Plans for Evaluating the Use of Soft Notices
in Addressing Underreporting Can Be Enhanced




                                                 Page 20
  Plans for Evaluating the Use of Soft Notices
in Addressing Underreporting Can Be Enhanced




                                                 Page 21
  Plans for Evaluating the Use of Soft Notices
in Addressing Underreporting Can Be Enhanced




                                                 Page 22
           Plans for Evaluating the Use of Soft Notices
         in Addressing Underreporting Can Be Enhanced



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 23
  Plans for Evaluating the Use of Soft Notices
in Addressing Underreporting Can Be Enhanced




                                                 Page 24
  Plans for Evaluating the Use of Soft Notices
in Addressing Underreporting Can Be Enhanced




                                                 Page 25
  Plans for Evaluating the Use of Soft Notices
in Addressing Underreporting Can Be Enhanced




                                                 Page 26
